TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Late Legislation Delayed the Filing of
                       Tax Returns and Issuance of Refunds
                            for the 2013 Filing Season



                                      September 30, 2013

                              Reference Number: 2013-40-124




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 2 = Risk Circumvention of Agency Regulation or Statute


 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


LATE LEGISLATION DELAYED THE                         prevented the issuance of $3.47 billion
FILING OF TAX RETURNS AND                            (96.4 percent) of those refunds. The IRS
ISSUANCE OF REFUNDS FOR THE                          continues to expand its efforts to identify and
2013 FILING SEASON                                   prevent fraudulent tax returns from being
                                                     processed.
                                                     The IRS offered a number of different options for
Highlights                                           taxpayers to seek information and assistance.
                                                     The use of self-assistance options has grown
Final Report issued on                               significantly. These options provide taxpayers
September 30, 2013                                   with access to the IRS 24 hours a day, seven
                                                     days a week. In comparison, declining IRS
Highlights of Reference Number: 2013-40-124          resources have reduced the number of
to the Internal Revenue Service Commissioner         taxpayers the IRS estimates it can assist at
for the Wage and Investment Division.                Taxpayer Assistance Centers.

IMPACT ON TAXPAYERS                                  Finally, many tax return preparers still do
                                                     not comply with Earned Income Tax Credit due
The filing season, defined as the period from        diligence reporting requirements, questionable
January 1 through mid-April, is critical for the     education credits and Qualified Plug-in Electric
IRS because it is during this time that most         Drive Motor Vehicle Credits continue to be
individuals file their income tax returns and        issued, and Homebuyer Credit repayments and
contact the IRS if they have questions about         dispositions are still being incorrectly processed.
specific tax laws or filing procedures. The late
passage of legislation increases the risk that the   WHAT TIGTA RECOMMENDED
processing of tax returns and issuance of tax
                                                     TIGTA made recommendations to the
refunds will be delayed.
                                                     Commissioner, Wage and Investment Division,
WHY TIGTA DID THE AUDIT                              to improve the identification of questionable
                                                     claims for the education credits and Qualified
Enactment of the American Taxpayer Relief Act        Plug-In Electric Drive Motor Vehicle Credit and
of 2012 on January 2, 2013, significantly            to reduce errors associated with the processing
reduced the time the IRS had to implement the        of Homebuyer Credit repayments and
tax changes it contained. The objective of this      dispositions. In addition, TIGTA recommended
review was to evaluate whether the IRS timely        that the IRS initiate programs to recover the
and accurately processed individual paper and        erroneous and questionable credits TIGTA
electronically filed tax returns during the          identified and to ensure that Earned Income Tax
2013 Filing Season.                                  Credit due diligence penalties are assessed
                                                     when appropriate.
WHAT TIGTA FOUND
                                                     The IRS agreed with seven of TIGTA’s
As of May 4, 2013, the IRS received more than
                                                     recommendations and partially agreed with one
133.6 million tax returns and issued more than
                                                     recommendation. The IRS plans to continue to
99.5 million refunds totaling more than
                                                     evaluate its processes to identify questionable
$264 billion. However, due to the late passage
                                                     education credit claims. It also plans to
of the American Taxpayer Relief Act of 2012 and
                                                     establish processes to improve the identification
errors in tax preparation software packages,
                                                     of questionable Qualified Plug-In Electric Drive
approximately 11.6 million taxpayers were
                                                     Motor Vehicle Credit claims, reduce errors
unable to file their tax returns until February or
                                                     associated with the processing of Homebuyer
March 2013, depending on the types of forms
                                                     Credit repayments and dispositions, and assess
included with their tax returns.
                                                     Earned Income Tax Credit due diligence
The IRS reported that it identified 579,183 tax      penalties. In addition, the IRS plans to assess
returns with $3.6 billion claimed in fraudulent      the feasibility of recovering the erroneous and
refunds during tax return processing and             questionable credits TIGTA identified.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 30, 2013


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Late Legislation Delayed the Filing of
                             Tax Returns and Issuance of Refunds for the 2013 Filing Season
                             (Audit # 201340010)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) timely and accurately processed individual paper and electronically filed tax returns during
 the 2013 Filing Season. This review is included in our Fiscal Year 2013 Annual Audit Plan and
 addresses the major management challenge of Implementing the Affordable Care Act and Other
 Tax Law Changes.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me if you have questions or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).
                                 Late Legislation Delayed the Filing of Tax Returns
                                and Issuance of Refunds for the 2013 Filing Season




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Late Legislation Delayed the Filing of Tax Returns ..................................... Page 3
          Efforts Increased to Identify and Prevent Fraudulent
          Tax Returns From Being Processed .............................................................. Page 7
          More Taxpayers Are Using Self-Assistance
          Customer Service Options .............................................................................. Page 9
          Many Paid Tax Return Preparers Continue to Not
          Comply With Earned Income Tax Credit Due
          Diligence Requirements ................................................................................ Page 13
                    Recommendation 1:........................................................ Page 15

          Taxpayers Continue to Receive Questionable
          Education Credits .......................................................................................... Page 16
                    Recommendations 2 and 3: .............................................. Page 18

          Some First-Time Homebuyer Credit Repayments and
          Dispositions Continue to Be Processed Incorrectly ...................................... Page 19
                    Recommendation 4:........................................................ Page 21

                    Recommendations 5 and 6: .............................................. Page 22

          Taxpayers Continue to Receive Erroneous Qualified
          Plug-in Electric Drive Motor Vehicle Credits .............................................. Page 22
                    Recommendation 7:........................................................ Page 23

                    Recommendation 8:........................................................ Page 24


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 25
          Appendix II – Major Contributors to This Report ........................................ Page 28
                     Late Legislation Delayed the Filing of Tax Returns
                    and Issuance of Refunds for the 2013 Filing Season



Appendix III – Report Distribution List ....................................................... Page 29
Appendix IV – Outcome Measures............................................................... Page 30
Appendix V – Glossary of Terms ................................................................. Page 32
Appendix VI – Management’s Response to the Draft Report ...................... Page 34
                       Late Legislation Delayed the Filing of Tax Returns
                      and Issuance of Refunds for the 2013 Filing Season




                                 Abbreviations

AOTC                      American Opportunity Tax Credit
e-file(d), e-filing       Electronically file(d); electronic filing
EFDS                      Electronic Fraud Detection System
EITC                      Earned Income Tax Credit
IP PIN                    Identity Protection Personal Identification Number
IRS                       Internal Revenue Service
MeF                       Modernized e-File
VIN                       Vehicle Identification Number
                            Late Legislation Delayed the Filing of Tax Returns
                           and Issuance of Refunds for the 2013 Filing Season




                                           Background

The annual tax return filing season1 is a critical period for the Internal Revenue Service (IRS)
because it is when most individuals file their income tax returns and contact the IRS if they have
questions about specific tax laws or filing procedures. As of
May 4, 2013, the IRS received more than 133.6 million                      As of May 4, 2013, the
individual income tax returns. In addition, the IRS provided              IRS received more than
customer service assistance via telephone, website, social                133.6 million individual
media, and face-to-face assistance to millions of taxpayers.                income tax returns.

One of the challenges the IRS confronts each year in
processing tax returns is the implementation of new tax law changes. Before the filing season
begins, the IRS must identify new tax law and administrative changes and revise the various tax
forms, instructions, and publications. It must also reprogram its computer systems to ensure that
tax returns are accurately processed. Problems with tax return processing could delay tax
refunds, affect the accuracy of tax accounts, and result in the generation of incorrect notices.

Tax law changes affecting the 2013 Filing Season
       American Taxpayer Relief Act of 2012 2 – Enacted January 2, 2013, this act increased the
        Alternative Minimum Tax exemption and allowed nonrefundable credits up to the full
        amount of the Alternative Minimum Tax. It also permanently indexes3 the Alternative
        Minimum Tax exemption for inflation and extended many tax credits and deductions that
        expired on December 31, 2011, including the:
        o Deduction for certain expenses incurred by eligible primary and secondary educators.
        o Deduction for qualified tuition and related expenses.
        o Itemized deduction for State and local general sales taxes.
        o Itemized deduction for mortgage insurance premiums.
        o Tax exclusion of individual retirement account distributions used for charitable
          purposes.
        o Residential energy credits for individuals.


1
  See Appendix V for a glossary of terms.
2
  Pub. L. No. 112-240, 126 Stat. 2313 (2013).
3
  Adjustments made to the Alternative Minimum Tax exemption amount based on inflation rates to ensure that the
exemption amount has the same affect, proportionately, on taxpayers in the future.
                                                                                                        Page 1
                            Late Legislation Delayed the Filing of Tax Returns
                           and Issuance of Refunds for the 2013 Filing Season



       Budget Control Act of 20114 – Enacted August 2, 2011, this act required Federal
        agencies to implement mandatory budget cuts. The IRS was required to make significant
        cuts in all major program areas, including customer service, for the remainder of Fiscal
        Year 2013 to implement the budget cuts required by the sequester.5 The IRS postponed
        necessary employee furloughs until after the completion of the filing season.
The IRS processed individual income tax returns at three Wage and Investment Division
Submission Processing sites during the 2013 Filing Season: Fresno, California; Kansas City,
Missouri; and Austin, Texas. In addition, the 2013 Filing Season marks the first filing season in
which the IRS accepted and processed all electronically filed (e-filed) individual tax returns
using the Modernized e-File (MeF) system. The MeF system is a modernized, Internet-based
e-file platform that provides real-time processing of tax returns that improves error detection,
standardizes business rules, and expedites return receipt acknowledgments. The MeF system
replaced the IRS’s prior e-filing system (referred to as the Legacy e-File system).
The 2013 Filing Season results are being presented as of several dates including April 30, 2013;
May 2, 2013; and May 4, 2013, unless otherwise specified. This review was performed at the
Wage and Investment Division Headquarters in Atlanta, Georgia; the Information Technology
organization Headquarters in Lanham, Maryland; the Submission Processing Site in
Kansas City, Missouri; and the Submission Processing function offices in Cincinnati, Ohio,
during the period January through July 2013. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




4
 Pub. L. No. 112-25, 125 Stat. 240 (2011).
5
 Section 901 of the American Taxpayer Relief Act of 2012 delayed the implementation of the sequestration budget
cuts until March 27, 2013.
                                                                                                        Page 2
                            Late Legislation Delayed the Filing of Tax Returns
                           and Issuance of Refunds for the 2013 Filing Season




                                     Results of Review

Late Legislation Delayed the Filing of Tax Returns
As of May 4, 2013, the IRS received more than 133.6 million tax returns and issued more than
99.5 million refunds totaling more than $264 billion. The majority of these tax returns were
timely processed, and tax refunds were issued within 45 calendar days of the April 15, 2013, tax
return due date. Figure 1 presents comparative filing season statistics as of May 4, 2013.
          Figure 1: Comparative Filing Season Statistics as of May 4, 2013

                                                                  2012        2013            %
  Cumulative Filing Season Data
                                                                 Actual      Actual         Change
  Individual Income Tax Returns

  Total Returns Received (thousands)                             134,623      133,673        -0.7%
    Paper Returns Received (thousands)                            22,854       20,124       -11.9%

    E-Filed Returns Received (thousands)                         111,769      113,549        1.6%

      Practitioner Prepared (thousands)                           70,130       70,080        -0.1%

      Home Computer (thousands)                                   41,639       43,469        4.4%

      Percent of Home Computer Returns                            37.3%         38.3%        2.7%

      Free File (thousands) (also in the Home Computer total)      3,033       2,872         -5.3%

      Fillable Forms (also in the Home Computer total)           456,183      457,555        0.3%

  Percentage of Returns E-Filed                                   83.0%         84.9%        2.3%

  Refunds

   Total Number Issued (thousands)                               101,171       99,551        -1.6%
   Total Dollars (millions)                                     $273,933    $264,420         -3.5%
   Average Dollars                                                $2,708       $2,656        -1.9%
   Total Number of Direct Deposits (thousands)                    78,794       79,226        0.5%
   Total Direct Deposit Dollars (millions)                      $230,158     $226,569        -1.6%
 Source: IRS 2013 Weekly Filing Season reports. Totals and percentages shown are rounded.




                                                                                                     Page 3
                         Late Legislation Delayed the Filing of Tax Returns
                        and Issuance of Refunds for the 2013 Filing Season



However, the late passage of the American Taxpayer Relief Act of 2012 and errors in tax
preparation software packages resulted in approximately 11.6 million taxpayers being unable to
file their tax returns until February or March 2013 depending on the types of forms included with
their tax returns. On March 4, 2013, the IRS began processing all individual tax returns.
On January 8, 2013, the IRS announced that it was delaying the start of the filing season to make
the changes necessary to implement provisions of the American Taxpayer Relief Act of 2012.
The IRS stated that most taxpayers would be able to file their tax returns beginning
January 30, 2013—one week later than the originally planned date of January 22, 2013.
However, as previously noted, some taxpayers were further delayed because several tax forms
required more extensive programming changes as a result of provisions included in the recent
legislation. According to the IRS, the impact would be minimized because taxpayers claiming
credits related to these forms generally do not file until later in the filing season. The forms
requiring more extensive programming included:
      Form 5695, Residential Energy Credits.
      Form 4562, Depreciation and Amortization (Including Information on Listed Property).
      Form 3800, General Business Credit.

Errors in tax preparation software packages caused further delays for individuals
claiming the American Opportunity Tax Credit (AOTC)
Although it originally planned to process tax returns claiming education credits beginning
January 30, 2013, the IRS announced on January 28, 2013, that taxpayers filing tax returns that
included a Form 8863, Education Credits (American Opportunity and Lifetime Learning
Credits), would not be able to file their tax return until mid-February. The IRS identified
problems during filing season computer program testing with this form, and the delay was
needed to fix the programming errors in its processing system. Taxpayers could begin filing tax
returns with a Form 8863 on February 14, 2013. However, once the IRS began receiving tax
returns with a Form 8863, they identified additional processing problems. On March 12, 2013,
the IRS announced that errors in a limited number of software products would further delay the
processing of tax returns for some taxpayers who filed with a Form 8863 between February 14
and 22, 2013.
According to the IRS, the software error affected 583,848 (25 percent) of the more than
2.3 million tax returns claiming the AOTC during this period. IRS management informed us that
beginning with the 2013 Filing Season, the IRS required software companies to transmit a “yes”
or “no” to specific questions on Form 8863 related to the AOTC. These questions relate to
specific requirements that need to be met to qualify for the credit. A limited number of e-file
software companies incorrectly programmed the form to replace a “no” answer with a blank
when transmitting the tax returns to the IRS. As a result, these tax returns were identified by the


                                                                                            Page 4
                         Late Legislation Delayed the Filing of Tax Returns
                        and Issuance of Refunds for the 2013 Filing Season



IRS’s error processes as having an incomplete Form 8863 (IRS programming requires either a
yes or no; the field cannot be blank).
Once the error is identified, the IRS suspends processing of the tax return and corresponds with
the taxpayer to obtain the missing information. The IRS originally estimated the time for
taxpayer response and correction of the missing information could take up to eight weeks.
However, on March 26, 2013, the IRS announced that due to the steps it took to help taxpayers
affected by the software errors, it was able to resolve these cases more quickly than anticipated—
in two to four weeks.
As of May 9, 2013, IRS management indicated that approximately 7,000 of the
583,848 taxpayers whose tax returns were originally delayed still had not received their tax
refund. IRS management stated that once the IRS corrected the errors caused by the blank fields
in the Form 8863, the tax returns continued through the IRS’s tax return verification processes.
If these verification processes identified additional errors on the tax return, a further delay would
result.

The e-filing rate and the use of home computers increased, whereas the use of
the Free File Program decreased
As of May 4, 2013, e-file volumes were 1.6 percent higher than the volumes for the same period
in the 2012 Filing Season. More taxpayers are preparing their own tax returns using a home
computer. For example, as of May 4, 2013, 38.3 percent of taxpayers used a home computer to
e-file their tax return compared to 37.3 percent for the same period in the 2012 Filing Season. In
addition, the number of individuals using the IRS’s Free File Fillable Forms to file their tax
returns is also increasing. The Fillable Forms opens up the Free File Program to nearly
everyone, with no income limitations. Use of Fillable Forms has increased to 457,555 tax
returns, an increase of 0.3 percent from the 2012 Filing Season.
However, participation in the Free File Program decreased by 5.3 percent when compared to the
same period in the 2012 Filing Season. The traditional IRS Free File Program is a free Federal
online tax preparation and e-filing program that enables eligible taxpayers to use commercial tax
software accessible for free through the IRS’s website, IRS.gov. The Free File Program was
developed through a partnership between the IRS and the Free File Alliance, LLC (a group of
private-sector tax preparation companies).

The use of the savings bond and split refund options has declined, and some
individuals may be misusing the split refund option
Through May 2, 2013, a total of 38,692 individuals requested to convert tax refunds totaling
more than $21.6 million into savings bonds. This represents an 8.3 percent decrease in the
number of taxpayers when compared to the same period during Processing Year 2012. In
addition, 766,465 individuals, an 11.7 percent decrease from Processing Year 2012, chose to
split tax refunds totaling more than $3.2 billion between two or three different checking and
                                                                                              Page 5
                            Late Legislation Delayed the Filing of Tax Returns
                           and Issuance of Refunds for the 2013 Filing Season



savings accounts. Figure 2 shows a comparison of taxpayers’ use of the split refund and savings
bond options for Processing Years 2012 and 2013 as of May 2, 2013.
                   Figure 2: Use of Savings Bonds and Split Refunds for
                    Processing Years 2012 and 2013 (as of May 2, 2013)

                     Savings Bonds                    2012 Actual       2013 Actual       % Change6

        Total Returns                                     42,212            38,692             -8.3%
        Total Refunds to Bonds $ (in millions)              $22.0             $21.6             -1.8%

                      Split Refunds

        Total Returns                                    868,333           766,465            -11.7%
        Total Refunds Split $ (in millions)               $3,700            $3,284            -11.2%
       Source: IRS 2013 Weekly Filing Season reports as of May 2, 2013. Totals shown are rounded.

In our Interim Filing Season report dated March 29, 2013,7 we reported that our preliminary
analysis of Form 8888, Allocation of Refund (Including Savings Bond Purchases), raised
concerns about the potential misuse of the split refund option to direct multiple tax refunds to the
same bank account. Form 8888 instructions state that the form is to be used only for the deposit
of a tax refund to an account in the taxpayer’s name. Taxpayers are not to use Form 8888 to
direct a portion of a tax refund to a tax return preparer for payment of services rendered or any
other purpose. We notified the IRS on February 8, 2013, that it appears tax refunds are being
directed to tax return preparer accounts and provided the IRS with the 452 paid tax return
preparers associated with 248,027 multiple direct deposits for review. In response, the IRS
indicated that it would review tax return preparer data and take necessary enforcement actions.
Since that time, the number of multiple split refunds to the same account increased. As of
May 2, 2013, taxpayers filed 385,591 tax returns with a Form 8888 requesting direct deposits
totaling more than $150.8 million into 46,897 bank accounts. Each of the 46,897 bank accounts
we identified had three or more Form 8888 deposits from different taxpayers into these accounts.
We determined that 248,027 (64 percent) of the 385,591 tax returns were prepared by a paid tax
return preparer. On June 24, 2013, IRS management indicated that they were still in the process
of reviewing the initial 452 tax return preparers we identified in February 2013 to determine their
level of abuse of Form 8888. IRS management indicated that once these reviews are completed,
they will educate tax return preparers on the proper use of Form 8888 and will take further action
to address the most egregious offenders.


6
 The percentages are based on the actual figures, not the rounded ones.
7
 Treasury Inspector General for Tax Administration, Ref. No. 2013-40-035, Interim Results of the 2013 Filing
Season (Mar. 2013).
                                                                                                         Page 6
                           Late Legislation Delayed the Filing of Tax Returns
                          and Issuance of Refunds for the 2013 Filing Season



Evaluation of tax provisions affected by the American Taxpayer Relief Act of 2012
The American Taxpayer Relief Act of 2012 extended a number of expiring tax provisions. Our
analysis of the following tax provisions found that the IRS adequately addressed the changes to
these provisions in its tax products, computer system programming, and processing guidance:
       Deduction for State and local general sales taxes.
       Deduction for teachers’ classroom expenses.
       The additional $1,000 added to the inflation-adjusted adoption credit and expiration of
        the refundable portion of the credit.
       Credit for certain nonbusiness energy property.
       Premiums for mortgage insurance deductible as qualified residence mortgage interest.
       Patch for the Alternative Minimum Tax.

Efforts Increased to Identify and Prevent Fraudulent Tax Returns
From Being Processed
As of May 4, 2013, the IRS reported that it had identified 579,183 tax returns with $3.6 billion
claimed in fraudulent refunds during tax return processing and prevented the issuance of
$3.47 billion (96.4 percent) of those refunds. Although this is a decrease in the number of
fraudulent tax refunds the IRS identified as of the same period in Processing Year 2012, the
decrease results from the IRS’s expanding efforts to identify and prevent fraudulent tax returns
from ever being processed. Figure 3 shows the number of fraudulent tax returns identified by the
IRS for Processing Years 2010 through 2012 as well as the refund amounts that were claimed
and stopped.
                   Figure 3: Fraudulent Returns and Refunds Identified
                   and Stopped in Processing Years 2010 Through 2012

                    Number of                                         Amount of
                    Fraudulent               Number of                Fraudulent          Amount of
  Processing      Refund Returns         Fraudulent Refund              Refunds           Fraudulent
     Year            Identified           Returns Stopped              Identified      Refunds Stopped

       2010            971,511                  881,303             $7,300,996,194      $6,931,931,314

       2011          2,176,657                1,756,242            $16,186,395,218     $14,353,795,007

       2012          3,422,505                3,110,788            $20,721,203,369     $19,247,812,922

Source: IRS fraudulent tax return statistics for Processing Years 2010 through 2012.

                                                                                                  Page 7
                               Late Legislation Delayed the Filing of Tax Returns
                              and Issuance of Refunds for the 2013 Filing Season



During tax return processing, paper and e-filed tax returns are analyzed through various
Electronic Fraud Detection System (EFDS) data model formulas. The data models identify
suspicious paper and e-filed tax returns based on specific characteristics of the tax return. An
associated score is computed for each tax return. The higher the score, the greater the likelihood
that the tax return is fraudulent. For those tax returns meeting a certain score, the tax return is
sent to an IRS tax examiner to screen the tax return for fraud potential. If a tax return is selected
for further verification, the tax refund is held until employers or third parties are contacted to
verify wage information on the tax return. If the verification process is not completed within a
certain time period, the tax refund is automatically released.

Increased efforts prevent fraudulent e-filed tax returns from being processed
Beginning in Fiscal Year 2011, the IRS began issuing Identity Protection Personal Identification
Numbers (IP PIN) to assist identity theft victims in the filing of their tax returns. For the
2013 Filing Season, the IRS reports that it issued approximately 759,000 IP PINs. The IP PIN
indicates that the taxpayer was a victim of identity theft and has previously provided the IRS
with information that validates his or her identity and that the IRS is satisfied that the taxpayer is
the valid holder of the Social Security Number. Tax returns filed with a valid IP PIN will be
processed using standard processing procedures, including issuing any refunds, if applicable.
However, if a valid IP PIN is not provided on the tax return, it will not be processed. For
example, if a valid IP PIN is not provided on an e-filed tax return, it will be rejected (the IRS will
not accept the tax return for processing). As of April 30, 2013, the IRS had rejected
approximately 380,000 tax returns as a result of an incorrect or missing IP PIN. A new IP PIN
will be issued each year before the start of the new filing season for as long as the taxpayer
remains at risk of identity theft.
The IRS is also continuing to expand the number of tax accounts that it locks by placing an
identity theft indicator on the account. Between January 2011 and May 2013, the IRS locked
approximately 10 million taxpayer accounts. E-filed tax returns using the Social Security
Number of a locked account will be rejected. As of April 30, 2013, the IRS has rejected
73,791 e-filed tax returns that used a Social Security Number of a locked account.

Detection of tax returns involving identity theft and prisoner tax returns
The IRS first developed 11 identity theft filters for use in Processing Year 2012.8 The number of
filters increased to more than 80 for use in the 2013 Filing Season, and as of May 30, 2013, the
IRS identified 151,010 tax returns and prevented approximately $840 million in fraudulent tax
refunds from being issued. The filters are used to identify potentially fraudulent tax returns and
prevent the issuance of refunds at the time tax returns are being processed. The identity theft
filters incorporate criteria based on characteristics of confirmed identity theft tax returns. These


8
    These filters were implemented prior to April 15, 2012.
                                                                                              Page 8
                            Late Legislation Delayed the Filing of Tax Returns
                           and Issuance of Refunds for the 2013 Filing Season



characteristics include amounts claimed for income and withholding, filing requirements,
prisoner status, taxpayer age, and filing history. Tax returns identified via the filters are held
during processing until the IRS can verify the taxpayer’s identity. If the individual’s identity
cannot be confirmed, the IRS removes the tax return from processing. This prevents the issuance
of a fraudulent tax refund. We conducted a separate review of the IRS’s efforts to detect and
prevent identity theft.
In addition, as of May 4, 2013, the IRS reported that it identified 149,527 potentially fraudulent
prisoner tax returns for screening. The tax refunds claimed on these prisoner tax returns totaled
approximately $185 million. We are in the process of conducting a separate review of the IRS’s
efforts to improve the detection and prevention of prisoner tax fraud.

Due to EFDS programming errors, some tax returns were not scored for fraud
In a separate review of the IRS’s wage and withholding verification process, we identified
320 Tax Year 2010 tax returns that should have been sent through the EFDS but did not receive
an EFDS score.9 We brought this to the IRS’s attention, and the IRS determined that errors in
the processes it used to load tax return data into the EFDS resulted in some tax returns not
receiving an EFDS fraud score. The IRS issued an alert on March 1, 2013, indicating that, as a
result of these errors, 332,835 Tax Year 2012 paper tax returns had not received an EFDS score.
IRS management indicated that programming changes were made at the beginning of the
2013 Filing Season to address the problems we identified for e-filed returns. The IRS stated that
the programming errors which affected paper tax returns were corrected by the end of
March 2013 and that the 332,835 Tax Year 2012 paper tax returns were subsequently sent
through EFDS and received an EFDS score, resulting in the prevention of more than $1 million
in fraudulent tax refunds.

More Taxpayers Are Using Self-Assistance Customer Service Options
Taxpayers have several options to choose from when they need assistance from the IRS,
including telephone assistance through the toll-free telephone lines, face-to-face assistance at the
Taxpayer Assistance Centers and Volunteer Program sites, and self-assistance through IRS.gov
and social media channels. The use of self-assistance options has grown significantly as
taxpayers seek information and assistance through these channels. In comparison, declining IRS
resources reduced the number of taxpayers that the IRS estimated it could assist at Taxpayer
Assistance Centers.




9
 Treasury Inspector General for Tax Administration, Ref. No. 2013-40-083, Income and Withholding Verification
Processes Are Resulting in the Issuance of Potentially Fraudulent Tax Refunds (Sept. 2013).
                                                                                                       Page 9
                          Late Legislation Delayed the Filing of Tax Returns
                         and Issuance of Refunds for the 2013 Filing Season



Self-assistance options – 24 hours a day, seven days a week
The IRS is committed to helping taxpayers obtain the information they need to comply with the
tax law. This includes offering more self-assistance options that taxpayers can access 24 hours a
day, seven days a week. For example, the IRS offers IRS2Go, which is a mobile application that
lets taxpayers interact with the IRS using their mobile device to access information and a limited
number of IRS tools. In addition, the IRS provides information via various forms of social
media including YouTube, Twitter, Tumblr, and Facebook. As of May 2, 2013, there were more
                                  than 2 million new downloads of the IRS2Go phone app, and
                                  more than 1.8 million new views of IRS YouTube videos. In
                                  addition, the number of Twitter followers increased 30 percent.
                                  In addition, as of May 4, 2013, the IRS reported a 24.7 percent
                                  increase in the number of visits to IRS.gov over the same period
in the 2012 Filing Season. It also reported a 55.6 percent increase in the number of taxpayers
obtaining their refund information online via the “Where’s My Refund?” feature found on
IRS.gov. Figure 4 shows the year-to-date comparisons. The IRS continues to expand its online
tools to assist taxpayers. For example, the IRS now offers a First-Time Homebuyer Credit
(Homebuyer Credit) Account Look-Up feature on IRS.gov. This feature allows taxpayers to see
the total amount of Homebuyer Credit they received, the amount they have paid back to date, the
balance of their Homebuyer Credit, and their annual installment repayment amount. The
Look-Up feature helps taxpayers determine whether they need to include any Homebuyer Credit
repayment on their current year tax return.
  Figure 4: Year-to-Date Comparisons of the 2010 Through 2013 Filing Seasons

                                                                                          % Change
                            2010 Actual     2011 Actual       2012 Actual   2013 Actual   2012–2013

 IRS.gov Visits            198,557,847      208,921,976       250,654,312   312,460,471     24.7%
 “Where’s My Refund?”       57,931,423       66,872,767       113,674,118   176,932,855     55.6%
Source: IRS 2010 through 2013 Filing Season Weekly reports.

“Where’s My Refund” tool did not always provide accurate refund status information early in
the filing season. We identified that the “Where’s My Refund?” tool did not consistently
provide accurate refund status information to some taxpayers who filed early in the 2013 Filing
Season. The IRS indicated that it had identified this issue on February 12, 2013, which resulted
from a computer programming error incorrectly overwriting the refund date. The IRS indicated
that the issue was corrected on March 14, 2013, and no new occurrences had been reported.
While updates could not be made to accounts that received the incorrect message prior to the
programming correction, the IRS expected the impact on affected taxpayers to be minimal
because those taxpayers had already received their refunds. Our review of 62 tax returns
received between March 2 and 15, 2013, confirmed that the “Where’s My Refund?” tool
                                                                                             Page 10
                             Late Legislation Delayed the Filing of Tax Returns
                            and Issuance of Refunds for the 2013 Filing Season



provided accurate information and correctly noted that the tax refunds had been issued for all
62 tax returns.

Face-to-face assistance provided at the Taxpayer Assistance Centers
The IRS assisted approximately 6.8 million taxpayers during Fiscal Year 2012 and plans to assist
six million taxpayers in Fiscal Year 2013. This represents 11.8 percent fewer taxpayers than
were assisted in Fiscal Year 2012. The Fiscal Year 2013 plan was based on the assumption of
limited seasonal staff support and the continuing reduction of permanent staff as a result of the
hiring freeze and buy-out authority. Figure 5 shows the number of contacts by product line at the
Taxpayer Assistance Centers for Fiscal Years 2010 through 2013.
          Figure 5: Contacts for Fiscal Years 2010 Through 2013 (in Millions)

                                                                     Fiscal Year

          Contacts/Product Lines                  2010           2011            2012          2013**

          Tax Accounts Contacts                    3.5            3.7              4.3          3.8
          Forms Contacts                           0.7            0.6              0.6          0.5
          Other Contacts10                         1.5            1.5              1.7          1.5
          Tax Law Contacts                         0.3            0.3              0.2          0.2
          Tax Returns Prepared11                   0.4            0.3             N/A          N/A
          Totals                                   6.4            6.4              6.8          6.0
        Source: IRS management information reports. ** Fiscal Year 2013 amounts are projections.

Toll-free telephone assistance
Through May 4, 2013, the IRS received approximately 92.8 million attempts from taxpayers
calling the various toll-free telephone assistance lines seeking help in understanding the tax law
and meeting their tax obligations.12 IRS assistors answered more than 15.6 million calls and
have achieved a 69.8 percent Level of Service13 with a 14.1 minute Average Speed of Answer.


10
   Other Contacts includes Form 2063, U.S. Departing Alien Income Tax Statement, date-stamping tax returns
brought in by taxpayers, screening taxpayers for eligibility of service, scheduling appointments, and helping
taxpayers with general information such as addresses and directions to other IRS offices or other Federal
Government agencies.
11
   In Fiscal Years 2012 and 2013, Tax Returns Prepared is included in Other Contacts.
12
   The IRS refers to the suite of 27 telephone lines to which taxpayers can make calls as “Customer Account
Services Toll-Free.”
13
   The IRS’s Customer Service Representative Level of Service measure only reflects the relative success rate of
taxpayers who call the IRS’s 27 toll-free telephone lines seeking assistance from an assistor.
                                                                                                           Page 11
                             Late Legislation Delayed the Filing of Tax Returns
                            and Issuance of Refunds for the 2013 Filing Season



The Level of Service for Fiscal Year 2012 was 67.8 percent. Figure 6 shows a comparison of
IRS toll-free telephone statistics through May 4, 2013, for Fiscal Years 2010 through 2013.
                          Figure 6: Toll-Free Telephone Statistics for
                      Fiscal Years 2010 Through 2013 (as of May 4, 2013)

                                                                 Fiscal Year

                Statistic               2010              2011              2012               2013

        Calls Answered            17,947,725         17,607,007        14,620,233         15,609,615
        Level of Service                76.0%             74.1%             67.8%              69.8%
        Average Speed of
                                           569               622               975                848
        Answer (seconds)
         Source: IRS management information reports as of May 4, 2013.

Tax preparation assistance at Volunteer Program sites
The Volunteer Program continues to play an important role in the IRS’s efforts to improve
taxpayer service and facilitate participation in the tax system. It provides no-cost Federal tax
return preparation and e-filing to underserved taxpayer segments, including low-income, elderly,
persons with disabilities, rural, Native Americans, and limited-English-proficient taxpayers. As
of May 4, 2013, more than three million tax returns have been prepared at the 13,081 Volunteer
Program sites nationwide. Figure 7 shows the number of tax returns prepared by volunteers from
Fiscal Years 2011 through 2013.
                               Figure 7: Volunteer Program Statistics
                                 for Fiscal Years 2011 Through 2013

                                    Fiscal Year        Fiscal Year       Fiscal Year        % Change
                                       2011               2012              2013            2012–2013

             Tax Returns            3,188,524           3,264,997         3,296,058          1.0%
             Volunteers                 88,527              98,978            91,820        -7.2%
             Sites                      12,486              13,14314          13,081        -0.5%
            Source: IRS management information system containing Fiscal Years 2011 through 2013
            information. Percentages are rounded.




14
   The Tax Returns and Sites totals do not include tax returns prepared using Facilitated Self-Assistance or those
sites.
                                                                                                             Page 12
                         Late Legislation Delayed the Filing of Tax Returns
                        and Issuance of Refunds for the 2013 Filing Season



We conducted a separate review of the accuracy of tax return preparation at Volunteer Program
sites. We visited 39 Volunteer Income Tax Assistance and Tax Counseling for the Elderly sites
to determine if taxpayers receive quality service, including accurate preparation of their
individual income tax returns. We developed scenarios designed to test quality controls and
training the volunteers received in preparation for the 2013 Filing Season.

Many Paid Tax Return Preparers Continue to Not Comply With Earned
Income Tax Credit Due Diligence Requirements
Each year the IRS estimates that $11 to $13 billion in Earned Income Tax Credits (EITC) are
improperly paid and estimates that two-thirds of all the EITC claims are prepared with the
assistance of a paid tax return preparer. Analysis of the more than 14.4 million tax returns with
an EITC claim that were prepared by a paid tax return preparer as of May 2, 2013, identified
708,298 (5 percent) tax returns claiming more than $2 billion in the EITC where the IRS
determined that the tax return preparer either did not include the required Form 8867, Paid
Preparer’s Earned Income Credit Checklist, or included an incomplete Form 8867. These
708,298 tax returns were prepared by 122,133 tax return preparers who continue to not comply
with EITC due diligence requirements.
Beginning with the 2012 Filing Season, paid tax return preparers who prepare a tax return
claiming the EITC must include Form 8867 with the tax return. Preparers who do not adhere to
this requirement can be assessed a $500 due diligence penalty for each tax return they submit
without the required Form 8867:
      Internal Revenue Code Section 6695(g) states: Any person who is a tax return preparer
       with respect to any return or claim for refund who fails to comply with due diligence
       requirements imposed by the Secretary by regulations with respect to determining
       eligibility for, or the amount of, the credit allowable by section 32 shall pay a penalty of
       $500 for each such failure.
      Section 1.6695–2 of Title 26 of the Code of Federal Regulations states: The tax return
       preparer must complete Form 8867, Paid Preparer’s Earned Income Credit Checklist, or
       such other form and such other information as may be prescribed by the Internal
       Revenue Service.
      Form 8867 states: If you checked “No” on line 20, 21, 22, 23, 24, or 25, you have not
       complied with all the due diligence requirements and may have to pay a $500 penalty for
       each failure to comply.




                                                                                            Page 13
                             Late Legislation Delayed the Filing of Tax Returns
                            and Issuance of Refunds for the 2013 Filing Season



The noncompliance we identified in the 2013 Filing Season is what we also reported in our
2012 Filing Season report.15 We reported that, as of May 3, 2012, almost 534,000 (4 percent)
tax returns with EITC claims totaling more than $1.5 billion were filed without the required
Form 8867. IRS management indicated that the new requirement did not become effective until
December 20, 2011, and although the IRS had taken immediate steps to communicate the
requirement to the preparer community, it is possible the message was not fully disseminated
before the filing season began. No penalties were assessed against tax return preparers who were
noncompliant in the 2012 Filing Season. The IRS indicated that it planned to assess penalties for
noncompliance for Tax Year 2012 returns.
For the 708,298 Tax Year 2012 tax returns identified, the potential penalties that can be assessed
as a result of not including the required Form 8867 total more than $354 million. Figure 8 shows
the results of our analysis of paid tax return preparers potentially subject to the EITC due
diligence penalty as of May 2, 2013.
              Figure 8: Analysis of Paid Tax Return Preparer Noncompliance
                 With EITC Due Diligence Requirements (as of May 2, 2013)

                                                                                              Potential
                                         Paid            Tax              EITC                 Penalty
                                       Preparers       Returns           Claimed              Amount

     No Form 8867 Included
     With Tax Return                     52,826        158,348         $362,088,138         $79,174,000
     Incomplete Form 8867
     Included With Tax Return            69,307        549,950       $1,679,914,975        $274,975,000

               TOTAL                   122,133         708,298       $2,042,003,113        $354,149,000

 Source: Our analysis of tax return information in the Individual Return Transaction File as of May 2, 2013.

At the start of the 2013 Filing Season, the IRS indicated that as a result of its extensive outreach
to software developers and the tax return preparer community prior to the start of the filing
season, it believed few, if any, paid tax return preparers would fail to comply with the new due
diligence reporting requirement. These efforts included the issuance of almost 5,000 warning
notices to paid tax return preparers who were noncompliant with the Form 8867 requirement in
Processing Year 2012. The IRS also indicated that it will identify Tax Year 2012 tax returns
prepared by a paid tax return preparer with a claim for the EITC and no Form 8867 throughout



15
  Treasury Inspector General for Tax Administration, Ref. No. 2012-40-119, The Majority of Individual Tax
Returns Were Processed Timely, but Not All Tax Credits Were Processed Correctly During the 2012 Filing Season
(Sept. 2012).


                                                                                                          Page 14
                         Late Legislation Delayed the Filing of Tax Returns
                        and Issuance of Refunds for the 2013 Filing Season



the 2013 Filing Season and will assess penalties against the paid tax return preparers at the
completion of the filing season.
On January 15, 2013, we notified the IRS of our concerns with its plans for assessing the due
diligence penalty. We suggested that the IRS establish a process to notify noncompliant tax
return preparers early in the filing season to allow them to become compliant and thus reduce the
amount of the penalty that they could ultimately be assessed. On February 14, 2013, we
provided the IRS with a list of 10,345 tax return preparers who were not in compliance with the
EITC due diligence requirement of including a completed Form 8867 with the tax return. IRS
management notified us on March 18, 2013, that in reviewing the tax return preparers we
provided, they identified that some of the missing or incomplete Forms 8867 may be the result of
errors in some of the tax preparation software preparers are using. However, the IRS was unable
to determine which preparers may have been affected by these errors.
As of June 24, 2013, the IRS stated that it was considering a number of options for assessing the
due diligence penalty but had not yet determined how to proceed. The IRS also stated that it
does not have a firm date as to when it will assess the due diligence penalties. The IRS indicated
that its goal is to assess applicable penalties before the next filing season, “as long as time and
resources allow for it.”

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should ensure that
the EITC due diligence penalty is assessed against tax return preparers who did not comply with
the requirement to attach a Form 8867 to tax returns with a claim for the EITC.
       Management’s Response: The IRS agreed with this recommendation and will
       complete its analysis of the Tax Year 2012 returns that were prepared by paid tax return
       preparers and did not have the required Form 8867. The IRS indicated that it will assert
       the penalty for failure to comply with EITC due diligence requirements in those cases
       where Letter 4989, You Submitted 2011 Credit Returns with EITC Without Attaching
       Form 8867, was issued and the preparer remained noncompliant in the 2013 Filing
       Season. To effectively manage resources and administer the penalty in a balanced and
       uniform manner, the IRS indicated that it will assert penalties on those preparers whose
       noncompliance is determined to be egregious or habitual.
       The IRS disagreed with our outcome measure of $354 million in EITC due diligence
       penalties. It believes that the amount associated with EITC due diligence penalties is
       lower than we estimated because it includes preparers whose noncompliance resulted
       from technical issues.
       Office of Audit Comment: While the IRS agreed with our recommendation, it plans
       to limit the assessment of penalties to only those preparers who were also delinquent in

                                                                                           Page 15
                               Late Legislation Delayed the Filing of Tax Returns
                              and Issuance of Refunds for the 2013 Filing Season



           meeting due diligence requirements in the 2012 Filing Season and whose noncompliance
           is determined to be egregious or habitual. This is despite the fact that the IRS has
           conducted extensive education and outreach to the tax return preparer and software
           provider communities since the requirement to provide Form 8867 became effective in
           December 2011. The IRS expended significant resources to ensure that tax return
           preparers were knowledgeable about the EITC due diligence requirements.
           The IRS disagreed with our outcome measure because it believes that some tax preparer
           noncompliance was caused by technical issues. During our audit, the IRS indicated that
           some of the tax return preparers we identified were affected by a tax preparation software
           error that resulted in the Form 8867 not being transmitted to the IRS or an incomplete
           Form 8867 being transmitted. However, as stated in our report, the IRS did not provide
           documentation during our review identifying those tax return preparers whose
           noncompliance was the result of a tax preparation software error.

Taxpayers Continue to Receive Questionable Education Credits
Our analysis of the processing of education credit claims filed on Tax Year 2012 tax returns
found that the IRS is continuing to allow credits for students who are unlikely to be enrolled in a
post-secondary education program. As of May 2, 2013, 42,961 taxpayers received questionable
education credits totaling approximately $58.5 million for students under the age of 14 and
over the age of 65. We identified that:
          15,208 taxpayers received more than $21.5 million in questionable AOTC credits. These
           taxpayers claimed AOTCs totaling nearly $13.3 million for students under the age of 14
           and $8.2 million for students over the age of 65.
          12,171 taxpayers received more than $3.5 million in questionable Lifetime Learning
           Credits. These taxpayers claimed Lifetime Learning Credits totaling almost $1 million
           for students under the age of 14 and $2.5 million for students over the age of 65.
          15,582 taxpayers received questionable AOTC and Lifetime Learning Credits. These
           taxpayers received more than $16.3 million in questionable AOTC credits—more than
           $9.7 million for students under the age of 14 and more than $6.6 million for students over
           the age of 65. These taxpayers also received more than $17.2 million in questionable
           Lifetime Learning Credits—more than $9.9 million for students under the age of 14 and
           more than $7.3 million for students over the age of 65.
Education credits include the AOTC and the Lifetime Learning Credit. The AOTC was created
by the American Recovery and Reinvestment Act of 200916 (the Recovery Act) and is a
refundable tax credit available for higher education expenses up to $4,000 for Tax Years 2009

16
     Pub. L. No. 111-5, 123 Stat 115 (2009).
                                                                                             Page 16
                            Late Legislation Delayed the Filing of Tax Returns
                           and Issuance of Refunds for the 2013 Filing Season



and 2010. The maximum AOTC is $2,500 per student, and the first 40 percent of the credit (up
to $1,000) is fully refundable. Taxpayers can receive the credit only for students who attend at
least half-time for at least one academic period and are pursuing a four-year degree or vocational
certification.17 The American Taxpayer Relief Act of 2012 extended the AOTC through
December 2017. The Lifetime Learning Credit, enacted in 1997 as part of the Taxpayer Relief
Act,18 is open to anyone taking at least one college or vocational course who meets the income
eligibility requirements. The qualifying person does not have to be pursuing a degree and there
is no minimum number of credit hours required.
In our 2012 Filing Season report,19 we reported that 109,618 taxpayers received AOTCs totaling
more than $159 million in Tax Year 2011 for students who, based on their age, are unlikely to be
enrolled in a four-year college degree or vocational education program. In response to our
review, the IRS developed filters to identify questionable claims for the AOTC based on the age
of the student. The IRS also revised Form 8863 to require detailed information about the
educational institution each student attended. In addition, the IRS indicated that it would use the
Automated Questionable Credit program to initiate correspondence to taxpayers and, if
appropriate, issue the requisite Statutory Notices of Deficiency to disallow erroneous credit
claims before payment. For those cases that are not appropriate for resolution through the
Automated Questionable Credit program, the IRS planned to continue to use existing
examination resources to supplement its efforts to address erroneous claims.
On February 28, 2013, we notified the IRS that taxpayers were continuing to receive education
credits for students whose age indicates it is not likely they are attending college. IRS
management agreed. According to IRS management, the filters they implemented in response to
our 2012 Filing Season report did not identify all instances where taxpayers claimed students
who, based on their age, are not likely attending college. IRS management also stated that the
IRS recognizes the importance of identifying and reviewing questionable AOTC claims based on
the student’s age. However, the IRS does not have the authority to deny the AOTC during tax
return processing based solely on the student’s age. We plan to conduct a separate review of the
IRS’s efforts to detect and prevent questionable education credit claims.




17
   Taxpayers can receive the AOTC for a graduate student who received their undergraduate degree in less than
four years.
18
   Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of the U.S. Code).
19
   Treasury Inspector General for Tax Administration, Ref. No. 2012-40-119, The Majority of Individual Tax
Returns Were Processed Timely, but Not All Tax Credits Were Processed Correctly During the 2012 Filing Season
(Sept. 2012).
                                                                                                     Page 17
                         Late Legislation Delayed the Filing of Tax Returns
                        and Issuance of Refunds for the 2013 Filing Season



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Update filters to ensure that all instances in which taxpayers claim
students whose age indicates it is not likely they are attending college are identified during tax
return processing as a potentially questionable education credit claim.
       Management’s Response: The IRS agreed with this recommendation. The IRS has
       implemented filters and business rules during return processing that consider the age of
       students for whom education credits are claimed. Business rules are also in place and
       used by the Compliance function to evaluate student ages when considering tax returns to
       be selected for audit. The processing and post-processing filters and business rules are
       frequently evaluated to ensure effectiveness and balance in identifying fraudulent or
       erroneous claims without unduly flagging those claims most likely to be accurate. The
       IRS disagreed with our outcome measures of potentially erroneous AOTC and Lifetime
       Learning Credits, stating that the age of the student is only one attribute to be considered
       when evaluating the potential for an erroneous or fraudulent claim.
       Office of Audit Comment: Although the IRS agreed with this recommendation, its
       response shows that corrective actions have already been taken to address the concerns
       we raised. However, we disagree that the actions taken are effective in identifying
       education credits claimed for students whose age indicates it is unlikely they are enrolled
       in secondary education or vocational training. As of May 2, 2013, we continued to
       identify questionable education credits that were not identified by IRS filters and business
       rules.
       We agree that the age of the student is only one attribute to be considered when
       evaluating the potential for an erroneous or fraudulent claim. However, we believe this is
       an important attribute of a potentially erroneous claim. The IRS also agrees that the age
       of the student is a significant indicator of potential error or fraud as demonstrated by the
       fact that it implemented filters and business rules to identify these education credit claims
       in response to similar concerns raised during our 2012 Filing Season review. The IRS
       should ensure that the filters and business rules are working properly.
Recommendation 3: Initiate a program to recover the more than $58 million from the
42,961 taxpayers who received education credits for students who were of an unlikely age to be
eligible for the credits.
Management’s Response: The IRS agreed with this recommendation. The Compliance
functions will select a sample set of returns for inclusion in the Fiscal Year 2014 Exam Plan.
The results of the sample examinations will be evaluated and considered in determining if
expansion of the sample is an appropriate use of limited resources or if the issue displaces other
work that is more productive.

                                                                                             Page 18
                             Late Legislation Delayed the Filing of Tax Returns
                            and Issuance of Refunds for the 2013 Filing Season



Some First-Time Homebuyer Credit Repayments and Dispositions
Continue to Be Processed Incorrectly
We have continued to report inaccuracies in the IRS’s processing of Homebuyer Credit
repayments in the results of our filing season reviews since September 2011. Analysis of
Homebuyer Credit repayments processed as of May 2, 2013, identified 4,184 tax returns for
which the IRS refunded a Homebuyer Credit installment payment as of May 2, 2013. We
reviewed a judgmental sample20 of 138 of these 4,184 tax returns and found that all of the
refunds were correctly issued to taxpayers. However, the IRS continues to incorrectly assess
Homebuyer Credit repayments and incorrectly calculate the remaining Homebuyer Credit
repayment amounts when property is transferred as a result of a divorce.
Individuals who claimed the Homebuyer Credit for a home purchased between April 9 and
December 31, 2008, are required to repay the credit in annual installment payments beginning
with their Tax Year 2010 return. Taxpayers who received a Homebuyer Credit must also repay
the credit, less any installment payments made, if they dispose of the home or if the home is no
longer used as their primary residence.21 Figure 9 shows the number of Homebuyer Credit
installments and dispositions the IRS processed as of May 2, 2013.
                          Figure 9: Homebuyer Credits, Installments,
                         and Dispositions Processed as of May 2, 2013

                                                                             Dollar Amount of
                                    Number of              Number of         Homebuyer Credit
           Category                Tax Returns             Individuals     Reported by Taxpayers

           Installments              593,339                800,131              $253,022,305
           Dispositions                19,659                25,991                 $7,885,268
          Source: Our analysis of the IRS’s Individual Return Transaction File as of May 2, 2013.

The IRS continues to incorrectly assess Homebuyer Credit repayments
We identified 114, 243 tax returns in which the IRS assessed Homebuyer Credits totaling more
than $47 million. The assessments were made because the repayment amounts shown on the tax
returns were lower than the amounts computed by the IRS. Our analysis of a statistical sample
of 383 of the 114,243 tax returns found that the IRS incorrectly assessed Homebuyer Credit
repayments totaling $32,826 on 99 (26 percent) tax returns. Based on the results of our review,


20
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
21
  A home is considered disposed if the taxpayer sold the home or the home was foreclosed upon, converted for
rental or business use, or destroyed or condemned. A home is also considered to be disposed when ownership of
                                                   A.2.1




the home is transferred as part of a divorce settlement.
                                                                                                            Page 19
                        Late Legislation Delayed the Filing of Tax Returns
                       and Issuance of Refunds for the 2013 Filing Season



we estimate that the IRS could have incorrectly assessed approximately $10.5 million in
Homebuyer Credit repayments to 52,031 taxpayers.
On May 7, 2013, we notified the IRS of our continued identification of erroneous assessments of
Homebuyer Credit repayments. IRS management agreed that repayment assessments were
incorrectly posting to taxpayer’s accounts. IRS management stated that a programming error
caused the incorrect assessment of the additional payment when some taxpayers submitted a
Form 5405, Repayment of the First-Time Homebuyer Credit, with their tax return. In Tax
Year 2012, taxpayers making regular installment payments were instructed to report their annual
repayment of the Homebuyer Credit on Line 59b of the Form 1040, U.S. Individual Income Tax
Return. These taxpayers did not need to complete the Form 5405. However, the IRS did not
provide a specific explanation as to why the presence of the Form 5405 when one was not
required resulted in an additional assessment. IRS management stated that the IRS has corrected
the assessment amounts on the tax returns we provided and plans to correct the programming
error.
While we agree that some of the erroneous assessments we identified may have been caused by
taxpayers submitting the Form 5405 when the form was not required, not all of the erroneous
Homebuyer Credit repayment assessments occurred for taxpayers who were not required to
provide a Form 5405. Of the 99 tax returns we identified with erroneous Homebuyer Credit
repayment assessments, 10 (10 percent) were filed without a Form 5405. In addition, taxpayers
were required to attach the Form 5405 on 17 (17 percent) tax returns because the taxpayer
reported a disposition of the home. On July 15, 2013, we notified the IRS of our concerns with
its assessment of the errors we identified and requested additional information as to why these
errors may have occurred. IRS management stated that a programming error in the software
used by its Error Resolution System caused certain tax returns with an additional Homebuyer
Credit assessment to not be identified for additional review before the assessment was processed.
IRS management indicated that they have requested computer programming changes to correct
the error for the 2014 Filing Season. In addition, IRS management stated that they will take
steps to identify taxpayers with potentially inappropriate Homebuyer Credit assessments and
correct the taxpayers’ accounts.

Calculation of remaining Homebuyer Credit repayment amounts continues to be
incorrect when property is transferred as a result of a divorce
Analysis of Homebuyer Credit dispositions processed as of May 2, 2013, found that the IRS
continues to record dispositions resulting from a divorce incorrectly. We reviewed 2,288 tax
accounts associated with 2,157 Tax Year 2012 tax returns the IRS processed as of May 2, 2013,
where the taxpayer reported a disposition resulting from divorce. We identified 239 (10 percent)
of the 2,288 tax accounts where the IRS incorrectly overstated the remaining Homebuyer Credit
repayment amount by $956,576.


                                                                                          Page 20
                        Late Legislation Delayed the Filing of Tax Returns
                       and Issuance of Refunds for the 2013 Filing Season



When ownership of a home used to claim the Homebuyer Credit is transferred in a divorce, the
credit repayment obligation less any installment payments that have been made is transferred to
the spouse who receives full ownership of the home. Taxpayers report the transfer of ownership
on Part III, Line 13, Box E, of Form 5405. For example:
   Taxpayers A and B file a joint tax return and claim a $7,500 Homebuyer Credit.
   Taxpayer A’s tax account will show a credit repayment obligation of $3,750 and
   Taxpayer B’s tax account will show a credit repayment obligation of $3,750. The couple
   makes a $500 Homebuyer credit repayment. The IRS credits one-half of the repayment to
   each taxpayer. As a result, Taxpayer A’s tax account now shows a net repayment obligation
   of $3,500 and Taxpayer B’s tax account now shows a net repayment obligation of $3,500.
   The couple gets divorced and Taxpayer A transfers ownership of the home to Taxpayer B.
   When ownership of the home is transferred, the net repayment obligation for Taxpayer A is
   transferred to Taxpayer B. As a result, Taxpayer A’s tax account will now show a
   $0 repayment obligation and Taxpayer B’s tax account will show a $7,000 net repayment
   obligation.
In September 2012, we reported that the IRS did not accurately process 66 percent (3,819 tax
accounts) of the taxpayer accounts it had processed as of December 31, 2011, where the taxpayer
transferred his or her ownership of the home to a spouse, e.g., in the case of a divorce. The
incorrect calculations of the remaining Homebuyer Credit repayment amounts were overstated
for 136 taxpayers by more than $650,000 and understated for 3,683 taxpayers by more than
$13.1 million. The overstatements were the result of a computer programming error. The IRS
stated that it would correct the computer programming and correct the tax accounts processed in
error. However, in May 2013, IRS management discovered that although requested
programming changes to correct the error identified last year were made, the requested changes
were never implemented. Management indicated that they are seeking a solution to resolve the
issue. In addition, the IRS is in the process of correcting the 239 taxpayer accounts with errors
we identified this year.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Correct the programming error that resulted in the over assessment of
an estimated $10.5 million in Homebuyer Credit installment payments to 52,031 taxpayers and
continue to evaluate the remaining erroneous assessments we identified and take action to correct
any conditions identified.
       Management’s Response: The IRS agreed with this recommendation.
       Programming changes to resolve the errors that led to the erroneous Homebuyer Credit
       assessments have been identified and are expected to be implemented for the 2014 Filing

                                                                                         Page 21
                        Late Legislation Delayed the Filing of Tax Returns
                       and Issuance of Refunds for the 2013 Filing Season



       Season. It should be noted, however, that programming changes are dependent upon
       Information Technology resource availability and Service-wide technology priorities.
       The IRS will continue to evaluate erroneous assessments that were made and ensure the
       accounts are adjusted appropriately.
Recommendation 5: Ensure that actions are taken to implement computer programming
changes to address errors identified during the 2012 Filing Season to prevent the continued errors
in processing Homebuyer Credit dispositions.
       Management’s Response: The IRS agreed with this recommendation.
       Programming changes to resolve the errors that led to incorrect processing of Homebuyer
       Credit information when dispositions occurred are expected to be implemented for the
       2014 Filing Season. It should be noted, however, that programming changes are
       dependent upon Information Technology resource availability and Service-wide
       technology priorities. The IRS will continue to evaluate erroneous assessments that were
       made and ensure that the accounts are adjusted appropriately.
Recommendation 6: Initiate a program to correct the 239 taxpayers’ accounts where the IRS
incorrectly recorded the transfer of the net Homebuyer Credit repayment obligation in the case of
a divorce.
       Management’s Response: The IRS agreed with this recommendation. The IRS is
       obtaining an extract of accounts to identify all accounts affected by the Homebuyer
       Credit programming errors and will adjust them to reflect their correct status.

Taxpayers Continue to Receive Erroneous Qualified Plug-in Electric
Drive Motor Vehicle Credits
Our review of Vehicle Identification Numbers (VIN) and vehicle descriptions provided by
taxpayers on Form 8936, Qualified Plug-in Electric Drive Motor Vehicle Credit, identified
574 tax returns claiming questionable Qualified Plug-in Electric Drive Motor Vehicle Credits
(referred to as Plug-in Motor Vehicle Credits) totaling more than $2.6 million as of May 2, 2013.
These 574 questionable claims include:
      114 (20 percent) taxpayers who claimed credits totaling $348,337 where the vehicle
       claimed on Form 8936 did not qualify for the credit.
      186 (32 percent) taxpayers who claimed credits totaling $827,369 where the description
       of the vehicle model or model year did not match the vehicle model or model year
       indicated by the VIN provided by the taxpayer.
      274 (48 percent) taxpayers who claimed credits totaling more than $1.4 million where the
       VIN provided on the Form 8936 was less than 17 digits.


                                                                                          Page 22
                             Late Legislation Delayed the Filing of Tax Returns
                            and Issuance of Refunds for the 2013 Filing Season



On March 26, 2013, we provided the IRS with 65 tax returns with questionable Plug-in Motor
Vehicle Credits for its review. IRS management agreed that the Plug-in Motor Vehicle Credit
was likely being allowed for nonqualifying vehicles. According to the IRS, processes ensure that
a VIN is provided on Form 8936 and, if provided, that the VIN is alphanumeric. However, these
processes do not ensure that the VIN is 17 characters or that the characters included in the VIN
represent a qualifying vehicle. IRS management indicated that it would review the most
questionable tax returns we identified and take necessary corrective actions.
The Recovery Act included a number of provisions that encourage the purchase of motor
vehicles (or the conversion of motor vehicles to those) that operate on clean renewable sources
of energy. In January and September 2011, we reported that taxpayers were claiming erroneous
Plug-in Motor Vehicle Credits.22 We recommended that the IRS develop a process to ensure that
taxpayers are not erroneously claiming credits for nonqualifying vehicle makes and models. The
IRS agreed with this recommendation and began requiring the VIN on Form 8936 in the
2012 Filing Season. The standard VIN is 17 digits long and identifies the vehicle manufacturer,
type, model, and year of manufacture. Figure 10 is an illustration of a standard VIN.
                                         Figure 10: Standard VIN

                           World Manufacturer Vehicle Descriptor
                                                                                   Vehicle Identifier Section
                                Identifier         Section
     Type of Information                                             Check              Assembly     Production
                           Country   Manufacturer   Type   Details            Year
          Provided                                                    Digit               Plant       Number

         VIN Digits          1           2           3      4–8        9      10           11          12–17

 Values From Example VIN
                             1           H           G      CM826      3       3            A          004352
  1HGCM82633A004352

Source: www.carfax.com/vin_decoding.cfx.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 7: Establish procedures to ensure that the VIN provided for each vehicle
claimed on Form 8936 is 17 characters long and, using the characteristics of the VIN, ensure that
the vehicle is eligible before allowing the Plug-in Motor Vehicle Credit.




22
  Treasury Inspector General for Tax Administration, Ref. No. 2011-41-011, Individuals Received Millions of
Dollars in Erroneous Plug-in Electric and Alternative Motor Vehicle Credits (Jan. 2011) and Ref. No. 2011-41-128,
The Passage of Late Legislation and Incorrect Computer Programming Delayed Refunds for Some Taxpayers
During the 2011 Filing Season (Sept. 2011).
                                                                                                         Page 23
                       Late Legislation Delayed the Filing of Tax Returns
                      and Issuance of Refunds for the 2013 Filing Season



      Management’s Response: The IRS partially agreed with this recommendation. The
      IRS will be evaluating changes to Form 8936 which will ensure that reported VINs
      contain the requisite number of characters. *****************2*****************
      ***********************************2************************************
      ***********************************2************************************
      ***********************************2************************************
      ***********************************2************************************
      ********************
Recommendation 8: Initiate a program to recover the erroneous Plug-in Motor Vehicle
Credits the IRS allowed on the 574 tax returns we identified.
      Management’s Response: The IRS agreed with this recommendation. The IRS has
      developed a business rule to identify returns claiming the Plug-in Motor Vehicle Credits
      for additional review. The Compliance functions will select a sample set of returns for
      inclusion in the Fiscal Year 2014 Exam Plan. The results of the sample examinations
      will be evaluated and considered in determining if expansion of the sample is an
      appropriate use of limited resources or if the issue displaces other work that is more
      productive.




                                                                                       Page 24
                        Late Legislation Delayed the Filing of Tax Returns
                       and Issuance of Refunds for the 2013 Filing Season



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate whether the IRS timely and accurately processed
individual paper and e-filed tax returns during the 2013 Filing Season. To achieve this objective,
we:
I.     Identified volumes of paper and e-filed tax returns received through May 4, 2013, from
       the IRS Weekly Filing Season reports that provided a year-to-date comparison of
       scheduled return receipts to actual return receipts. The reports also provided a
       comparison to Fiscal Year 2012 receipts for the same period.
II.    Determined whether the IRS correctly implemented selected tax legislation that affected
       the processing of individual taxpayer returns during the 2013 Filing Season.
       A. Evaluated the IRS’s preparations for the following potentially expiring tax provisions
          and determined whether the IRS handled them timely and appropriately.
              Deduction for State and local general sales taxes.
              Deduction for teachers’ classroom expenses.
              The additional $1,000 added to the inflation adjusted adoption credit and the
               adoption credit being refundable.
              Credit for certain nonbusiness energy property.
              Premiums for mortgage insurance deductible as qualified residence mortgage
               interest.
              Patch for the Alternative Minimum Tax.
       B. Electronically identified 574 tax returns claiming questionable Plug-in Motor Vehicle
          Credits totaling more than $2.6 million on Form 8936, Qualified Plug-in Electric
          Drive Motor Vehicle Credit.
III.   Determined the status and accuracy of programs planned to be initially implemented for
       the 2013 Filing Season.
       A. Electronically identified more than 14.4 million EITC tax returns that were prepared
          by a paid preparer. We determined which preparers could be subject to the EITC due
          diligence penalty based on tax returns submitted without a Form 8867, Paid
          Preparer’s Earned Income Credit Checklist.


                                                                                          Page 25
                                Late Legislation Delayed the Filing of Tax Returns
                               and Issuance of Refunds for the 2013 Filing Season



           B. Tested the accuracy of the expanded “Where’s My refund?” application on IRS.gov
              by tracking a judgmental sample1 of 62 returns. A judgmental sample was selected to
              validate the accuracy of the program and because we did not intend to project to the
              population.
IV.        Followed up on findings previously reported by the Treasury Inspector General for Tax
           Administration to ensure that the IRS has taken the agreed-upon action to resolve the
           issues.
           A. Determined whether the IRS is inappropriately refunding Homebuyer Credit
              installment payments to taxpayers who correctly report the required repayment
              amounts on their tax returns by reviewing a judgmental sample of 138 returns that
              had the installment payment refunded and determined whether the refund was
              appropriate. A judgmental sample was used because we did not intend to project to
              the population.
           B. Electronically identified 114,243 returns that had an additional Homebuyer Credit
              installment payment assessed. We determined whether the IRS correctly assessed
              additional installment payments by reviewing a statistical sample of 383 returns with
              Homebuyer Credit assessments. The sample size was selected based on a 50 percent
              error rate, 95 percent confidence level, and 5 percent precision.
           C. Electronically identified 2,157 returns where the taxpayers reported a disposition
              resulting from a divorce. We evaluated the returns to determine whether the IRS
              processed the disposition correctly.
           D. Electronically determined that 42,961 taxpayers received questionable education
              claims totaling approximately $58.5 million for students under the age of 14 and over
              the age of 65.
V.         Determined whether the IRS monitoring systems indicated that individual tax returns are
           being processed timely and accurately.
           A. Attended weekly Wage and Investment Division Filing Season Production meetings
              to keep informed on any issues occurring nationwide.
           B. Monitored the IRS Submission Processing website, the IRS public website, and other
              applicable websites to identify significant issues or new tax legislation passed after
              the filing season began that may affect processing of Tax Year 2012 individual tax
              returns.




1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 26
                          Late Legislation Delayed the Filing of Tax Returns
                         and Issuance of Refunds for the 2013 Filing Season



VI.     Compiled statistical information that is of interest to external stakeholders.
        A. Quantified fraudulent tax returns and tax returns filed by prisoners.
        B. Determined whether individuals are using the savings bond option for direct purchase
           of savings bonds from their refunds.
        C. Determined whether individuals are using the split refund option for depositing their
           refunds.
VII.    Identified results for the IRS Taxpayer Assistance Center Program.
        A. Obtained statistics on taxpayers served at the Taxpayer Assistance Centers from the
           IRS Field Assistance Office.
        B. Reviewed the IRS Weekly Filing Season reports, which provide a year-to-date
           comparison of various Taxpayer Assistance Center activity levels for the
           2011 through 2013 Filing Seasons.
VIII.   Identified results for the IRS Toll-Free Telephone Assistance Program by reviewing
        Performance Templates and Executive Level Summary reports from the Enterprise
        Telephone Data Warehouse for the filing season.
IX.     Identified results for IRS self-assistance through IRS.gov from the IRS Weekly Filing
        Season reports of IRS.gov activity levels for the 2010 through 2013 Filing Seasons.
Data Reliability
To assess the reliability of computer-processed data, programmers in the Treasury Inspector
General for Tax Administration Office of Strategic Data Services validated the data that were
extracted, and we verified the data with appropriate documentation. Judgmental samples were
selected and reviewed to ensure that the amounts presented were supported by external sources.
We found the data to be sufficiently reliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations for the 2013 Filing Season. We accomplished this
by monitoring the IRS weekly production meetings, reviewing IRS procedures, and interviewing
IRS management. We also evaluated the controls that are incorporated directly into computer
applications to help ensure that the validity, completeness, accuracy, and confidentiality of
transactions and data during application processing of tax returns for the 2013 Filing Season.


                                                                                         Page 27
                       Late Legislation Delayed the Filing of Tax Returns
                      and Issuance of Refunds for the 2013 Filing Season



                                                                             Appendix II

                 Major Contributors to This Report

Randee Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Kyle Andersen, Director
Deann L. Baiza, Director
Bill R. Russell, Audit Manager
Lance J. Welling, Lead Auditor
Laura P. Haws, Senior Auditor
Linna K. Hung, Senior Auditor
Mark V. Willoughby, Senior Auditor
Nikole L. Smith, Auditor
Kim I. McMenamin, Audit Evaluator
Michelle S. Cove, Assistant Director, Information Technology
James M. Allen, Information Technology Specialist
Joseph C. Butler, Information Technology Specialist
Brian W. Hattery, Information Technology Specialist
Donald J. Meyer, Information Technology Specialist
Steven E. Vandigriff, Information Technology Specialist




                                                                                     Page 28
                       Late Legislation Delayed the Filing of Tax Returns
                      and Issuance of Refunds for the 2013 Filing Season



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Support, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operation Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, E-file Services, Wage and Investment Division SE:W:CAS:SP:EFS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 29
                         Late Legislation Delayed the Filing of Tax Returns
                        and Issuance of Refunds for the 2013 Filing Season



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $354,149,000 in EITC due diligence penalties not assessed on
    122,133 tax return preparers who did not include a Form 8867, Paid Preparer’s Earned
    Income Credit Checklist, with tax returns claiming the EITC (see page 13).

Methodology Used to Measure the Reported Benefit:
We computer identified 122,133 tax return preparers who prepared 708,298 tax returns with
EITC claims for which they did not include the Form 8867 as required. Tax return preparers are
subject to a $500 penalty for each tax return with an EITC claim for which the Form 8867 is not
provided. We estimate that total penalties on the 708,298 tax returns with a missing or
incomplete Form 8867 could total $354,149,000.

Type and Value of Outcome Measure:
   Cost Savings, Funds Put to Better Use – Potential; $37,780,021 from 30,822 taxpayers
    claiming refundable AOTC in Tax Year 2012 for students who are of an age at which they
    are unlikely to be enrolled in a four-year college or vocational program (see page 16).

Methodology Used to Measure the Reported Benefit:
We identified 30,822 taxpayers who erroneously claimed $37,780,021 in the AOTC on tax
returns processed during the period January 1 through May 2, 2013. These taxpayers received
tax refunds for the AOTC for students who are younger than age 14 or older than age 65.

Type and Value of Outcome Measure:
   Revenue Protection – Potential; $20,711,762 from 27,764 taxpayers claiming Lifetime
    Learning Credits for Tax Year 2012 for students who are of an age at which they are unlikely
    to be enrolled in a four-year college or vocational program (see page 16).




                                                                                          Page 30
                         Late Legislation Delayed the Filing of Tax Returns
                        and Issuance of Refunds for the 2013 Filing Season



Methodology Used to Measure the Reported Benefit:
We computer identified 27,764 taxpayers who erroneously claimed $20,711,762 in Lifetime
Learning Credits on tax returns processed during the period January 1 through May 2, 2013.
These taxpayers received tax refunds for education credits for students who are younger than
age 14 or older than age 65.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 52,031 taxpayers making their annual
    First-Time Homebuyer Credit installment payment were erroneously assessed $10,477,897
    more in Homebuyer Credits than they were required to pay (see page 19).

Methodology Used to Measure the Reported Benefit:
We computer identified 114,243 tax returns with 190,889 taxpayers who had been manually
assessed a Homebuyer Credit repayment amount for a home purchased in Tax Year 2008. We
reviewed a statistically valid sample of 383 of the returns and found that 99 (26 percent) returns
for 163 taxpayers were erroneously assessed $32,826 more in additional Homebuyer Credits than
they were required to repay.
Based on these results, we estimate that the IRS erroneously assessed 52,031 taxpayers
$10,477,897 more in additional Homebuyer Credits than they were required to pay. Our
taxpayer projection is based on a 95 percent confidence level, a point estimate of 52,031, and a
range of 45,223 to 58,839. Our dollar projection is based on a 95 percent confidence level, a
point estimate of $10,477,897, and a range of $8,522,332 to $12,433,462.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 239 accounts belonging to taxpayers who
    disposed of their home due to a divorce and had their remaining Homebuyer Credit
    repayment amount overstated by $956,576 (see page 19).

Methodology Used to Measure the Reported Benefit:
We computer identified 2,288 accounts of taxpayers who disposed of their home due to a
divorce and were no longer responsible to repay the Homebuyer Credit. Our review of the
2,288 taxpayer accounts identified 239 (10 percent) where the IRS overstated the taxpayers’
remaining Homebuyer Credit repayment amount by $956,576.




                                                                                          Page 31
                     Late Legislation Delayed the Filing of Tax Returns
                    and Issuance of Refunds for the 2013 Filing Season



                                                                              Appendix V

                           Glossary of Terms

Average Speed of       The average number of seconds taxpayers waited in the assistor
Answer                 queue (on hold) before receiving services.
Customer Service       The relative success rate of taxpayers who call for live assistance
Representative Level   on the IRS toll-free telephone lines.
of Service
Earned Income Tax      A refundable Federal tax credit for low-income working
Credit                 individuals and families.
Electronic Fraud       An automated system used to maximize fraud detection at the time
Detection System       tax returns are filed to eliminate the issuance of questionable
                       refunds.
Enterprise Telephone   The official source for all data related to toll-free telephone system
Data Warehouse         measures and indicators.
Facilitated            An initiative to provide self-help assistance kiosks at Taxpayer
Self-Assistance        Assistance Centers. The kiosks can be used by taxpayers to access
                       IRS.gov to file their tax returns, print tax forms and publications,
                       or conduct tax research.
Filing Season          The period from January 1 through mid-April when most
                       individual income tax returns are filed.
First-Time             A refundable Federal tax credit for individuals who purchase a
Homebuyer Credit       home.
Fiscal Year            A 12-consecutive-month period ending on the last day of any
                       month. The Federal Government’s fiscal year begins on October 1
                       and ends on September 30.
Free File              A free Federal tax preparation and e-filing program for eligible
                       taxpayers developed through a partnership between the IRS and
                       the Free File Alliance, LLC. The Alliance is a group of private
                       sector tax software companies.
Individual Return      A database the IRS maintains that contains information on the
Transaction File       individual tax returns it receives.


                                                                                       Page 32
                     Late Legislation Delayed the Filing of Tax Returns
                    and Issuance of Refunds for the 2013 Filing Season




Processing Year        The calendar year in which the return or document is processed by
                       the IRS.
Sequester              A set of automatic mandatory spending cuts implemented by
                       Federal law that affect Government outlays.
Submission             The data processing arm of the IRS. The sites process paper and
Processing Site        electronic submissions, correct errors, and forward data to the
                       Computing Centers for analysis and posting to taxpayer accounts.
Tax Year               The 12-month period for which tax is calculated. For most
                       individual taxpayers, the tax year is synonymous with the
                       calendar year.
Taxpayer Assistance    Walk-in sites where taxpayers can obtain answers to both account
Centers                and tax law questions as well as receive assistance in preparing
                       their tax returns.
Volunteer Program      Includes the Volunteer Income Tax Assistance Program, including
                       the Volunteer Income Tax Assistance Grant Program and the Tax
                       Counseling for the Elderly Program. The Volunteer Program
                       provides free tax assistance to persons with low-to-moderate
                       income (generally $50,000 and below), the elderly, persons with
                       disabilities, and persons with limited-English proficiency.




                                                                                   Page 33
        Late Legislation Delayed the Filing of Tax Returns
       and Issuance of Refunds for the 2013 Filing Season



                                                    Appendix VI

Management’s Response to the Draft Report




                                                             Page 34
 Late Legislation Delayed the Filing of Tax Returns
and Issuance of Refunds for the 2013 Filing Season




                                                      Page 35
 Late Legislation Delayed the Filing of Tax Returns
and Issuance of Refunds for the 2013 Filing Season




                                                      Page 36
 Late Legislation Delayed the Filing of Tax Returns
and Issuance of Refunds for the 2013 Filing Season




                                                      Page 37
 Late Legislation Delayed the Filing of Tax Returns
and Issuance of Refunds for the 2013 Filing Season




                                                      Page 38
                                     Late Legislation Delayed the Filing of Tax Returns
                                    and Issuance of Refunds for the 2013 Filing Season




RESPONSIBLE OFFICIALS
Director, Submission Processing, Customer Account Services, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.

RECOMMENDATION 6
Initiate a program to correct the 239 taxpayers’ accounts where the IRS incorrectly recorded the transfer of
the net Homebuyer Credit repayment obligation in the case of a divorce.

CORRECTIVE ACTION
We are obtaining an extract of accounts from the Master File to identify all accounts affected by the First
Time Homebuyer Credit programming errors, and will adjust them to reflect their correct status.

IMPLEMENTATION DATE
October 15, 2014

RESPONSIBLE OFFICIALS
Director, Accounts Management, Customer Account Services, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.

Recommendations

The Commissioner, Wage and Investment Division, should:

RECOMMENDATION 7
Establish procedures to ensure that the VIN provided for each vehicle claimed on Form 8936 is 17 characters
long and, using the characteristics of the VIN, ensure that the vehicle is eligible before allowing the Plug-in
Motor Vehicle Credit.

CORRECTIVE ACTION
We are evaluating changes to Form 8936, Qualified Plug-in Electric Drive Motor Vehicle Credit, which will
ensure reported Vehicle Identification Numbers (VIN) contain the requisite number of characters. ***2****
***************************************2************************************************
****************************************************************************************
***************************************2************************************************
***************************************2************************************************
*************************2**************************.

IMPLEMENTATION DATE
February 15, 2016

RESPONSIBLE OFFICIALS
Director, Submission Processing, Customer Account Services, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.

                                                                                                       Page 39 
                                     Late Legislation Delayed the Filing of Tax Returns
                                    and Issuance of Refunds for the 2013 Filing Season




RECOMMENDATION 8
Initiate a program to recover the erroneous Plug-in Motor Vehicle Credits the IRS allowed on the 574 tax
returns we identified.

CORRECTIVE ACTION
We have developed a business rule to identify returns claiming the Plug-in Motor Vehicle Credits for
additional review. The Compliance functions will select a sample set of returns for inclusion in the Fiscal
Year 2014 Exam Plan. The results of the sample examinations will be evaluated and considered in
determining if expansion of the sample is an appropriate use of limited resources, or if the issue displaces
other work that is more productive.

IMPLEMENTATION DATE
March 15, 2015

RESPONSIBLE OFFICIALS
Director, Reporting Compliance, Wage and Investment Division
Director, Campus Reporting Compliance, Small Business/Self Employed Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.




                                                                                                       Page 40 
